       OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




      Construction Deficiencies at
     Afghan Border Police Bases Put
     $19 Million Investment at Risk




                                                     July 30, 2012




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar
                   SIGAR
                                                             SIGAR Inspections 12-1                                                          July 30, 2012
                                                             Construction Deficiencies at Afghan Border Police Bases
                                                                        Put $19 Million Investment at Risk
  Special Inspector General for Afghanistan Reconstruction

What SIGAR Reviewed

Building the country’s capacity to provide for its own security by training and equipping the Afghan National Security Forces (ANSF)
is an objective of the coalition efforts in Afghanistan. As of June 30, 2012, the Congress appropriated about $89.48 billion for relief
and reconstruction in Afghanistan. Of this amount, about $52.15 billion (about 58 percent) has been allocated for security. The
Combined Security Transition Command-Afghanistan (CSTC-A), through the Afghanistan Security Forces Fund, provided over
$19 million to construct four Afghan Border Police (ABP) bases in the Nangarhar Province on Afghanistan’s eastern border. The U.S.
Army Corps of Engineers, Afghanistan Engineer District-North (USACE-TAN) awarded the construction contract in June
2008. Specifically, SIGAR determined whether (1) construction was completed in accordance with contract requirements and
applicable construction standards, (2) facilities were being used as intended, and (3) construction deficiencies were corrected before
acceptance and transfer of the facilities to CSTC-A.
SIGAR conducted its work from January to July 2012, in accordance with the Quality Standards for Inspection and Evaluation,
published by the Council of the Inspectors General on Integrity and Efficiency. Engineering assessments were conducted in accordance
with the Code of Ethics for Engineers.




What SIGAR Found

Most facilities at the bases we inspected were either unoccupied or were not used for
the intended purposes. SIGAR found construction deficiencies at the three bases it
inspected. One base—Lal Por 2—had no viable water supply, and therefore, was not
being used. The Nazyan base may soon be uninhabitable if the septic system continues
to back up into the pipes causing overflow. Many construction deficiencies were not
identified and corrected prior to our inspection because the contractor and USACE-
TAN failed to follow their quality control and assurance processes. Moreover,
USACE-TAN did not verify that construction at the bases had been completed,
primarily due to security issues. As a result, USACE-TAN accepted and transferred the
bases to CSTC-A before construction deficiencies were either completely identified or
                                                                                                                Photo: Transferred in May 2011, open bay
remediated. If the contractor does not correct the deficiencies, the U.S. government                            barracks facility at Nazyan base remains
may incur additional costs for remediation.                                                                     unused, February 17, 2012.


What SIGAR Recommends

This report makes four recommendations to the Commanding General, USACE to ensure that construction deficiencies are
addressed in accordance with contract requirements and applicable construction standards; to take the necessary actions to
remediate the identified deficiencies; and to ensure that the government and the contractor achieve the quality established by
contract requirements for ongoing and future construction contracts. In commenting on a draft of this report, USACE-TAN
concurred with the recommendations and noted the steps it has taken or plans to take to address them. In its response, USACE-
TAN emphasized that critical security and access issues hamper its ability to perform quality management activities and verify
construction completion. SIGAR recognizes that security has and will continue to have an impact on site visits. However, site
visits and other oversight activities are necessary to provide assurance that the U.S. government only pays for work that was
performed satisfactorily.



                        For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                       Special Inspector General for Afghanistan Reconstruction
                                                                                            Main: 703-545-6000
                                                                                    1550 Crystal Drive, 9th Floor
                                                                                                  Arlington, VA
        John F. Sopko, Special Inspector General                                                  www.sigar.mil



July 30, 2012

General James N. Mattis
Commander, U.S. Central Command
General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Lieutenant General Daniel P. Bolger
Commanding General, NATO Training Mission-Afghanistan/
  Combined Security Transition Command-Afghanistan
Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
  U.S. Army Corps of Engineers

This report discusses the results of the Office of the Special Inspector General’s for Afghanistan
Reconstruction (SIGAR) inspection of Afghan Border Police construction projects in Nangarhar
Province, Afghanistan. Of particular concern was the extent to which the $19 million investment in
construction resulted in contributing to building the country’s capacity to provide for its own security.
We found that the construction did not meet standards and made four recommendations to the
Commanding General, U.S. Army Corps of Engineers to address these concerns and, specifically, to
ensure that construction deficiencies are addressed in accordance with contract requirements and
applicable construction standards; actions are taken to remediate the identified deficiencies; and ensure
the government and the contractor achieve the quality established by contract requirements for ongoing
and future construction contracts.

SIGAR conducted this inspection under the authority of Public Law 110-181, as amended, the Inspector
General Act of 1978, and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction




                       Mailing Address: 2530 Crystal Drive, Arlington VA 22202-3940
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Construction Quality Was Generally Inadequate and Contractor and Government
   Oversight Did Not Ensure Construction Deficiencies Were Remediated .............................................. 3
Some Facilities Were Not Used for Intended Purposes and Others Were Not
   Occupied............................................................................................................................................... 12
Bases Were Transferred and Accepted with Significant Construction Deficiencies
   and Inadequate Documentation ............................................................................................................ 14
Conclusion .................................................................................................................................................. 15
Recommendations ....................................................................................................................................... 15
Comments ................................................................................................................................................... 16
Appendix I: Scope and Methodology ........................................................................................................ 18
Appendix II: Summary of W917PM-08-C-0065 ....................................................................................... 19
Appendix III: Summary of Construction Quality Issues............................................................................ 21
Appendix IV: Summary of Incomplete Construction ................................................................................ 22
Appendix V: Defects Identified at Lal Por 1 ............................................................................................. 23
Appendix VI: Defects Identified at Lal Por 2 ............................................................................................ 25
Appendix VII: Defects Identified at Nazyan ............................................................................................. 27
Appendix VIII: Comments from U.S. Army Corps of Engineers.............................................................. 29


TABLES

Table 1. Facility Usage ............................................................................................................................... 13
Table I: Summary of Costs-W917PM-08-C-0065 ..................................................................................... 19
Table II: Summary of Amendments to Contract W917PM-08-C-0065 ..................................................... 20
Table III: Summary of Construction Quality Issues ................................................................................... 21
Table IV: Summary of Incomplete Construction ....................................................................................... 22
Table V: SIGAR Observations at Lal Por 1 ............................................................................................... 23
Table VI: SIGAR Observations at Lal Por 2 ............................................................................................. 25
Table VII: SIGAR Observations at Nazyan ................................................................................................ 27


FIGURES AND PHOTOS

Photo 1: No Storm Drain Inlets..................................................................................................................... 4
Photo 2: Water Tower Missing Pipe Insulation ............................................................................................ 4
Photo 3: Leaking Fuel Lines on Generator ................................................................................................... 5
Photo 4: Unconnected Drain Pipe ................................................................................................................. 5
Photo 5: Missing Erosion Protection ............................................................................................................ 7
Photo 6: Guard Tower Column Unsupported ............................................................................................... 7
Photo 7: Wall Perforation Not Finished........................................................................................................ 7

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                                                 ii
Photo 8: HVAC Duct Supports Not Attached .............................................................................................. 7
Photo 9: Improper Material Substitution (Rebar Material Used for Ladder)................................................ 8
Photo 10: Tiles Fallen Off Wall .................................................................................................................... 8
Photo 11: Soil Subsidence ............................................................................................................................ 8
Photo12: Missing Door Sill .......................................................................................................................... 8
Photo13: Leaking Fuel Tank ....................................................................................................................... 10
Photo14: No Storm Drain Inlets.................................................................................................................. 10
Photo15: Sewage Level Rising into Manhole ............................................................................................. 10
Photo 16: Straight HVAC 90 Degree Bends ............................................................................................... 10
Photo 17: Lal Por 1, Well House Used as Chicken House ......................................................................... 13
Photo 18: Lal Por 1, Propane Storage Building Used as Makeshift Kitchen .............................................. 13
Photo 19: Nazyan, POL Building Used as Living Area.............................................................................. 14
Photo 20: Nazyan, Administration Building Used as Living Area ............................................................. 14




ABBREVIATIONS AND ACRONYMS

ABP                         Afghan Border Police
ANSF                        Afghan National Security Forces
CSTC-A                      Combined Security Transition Command-Afghanistan
DFAC                        Dining Facility
ER                          Engineer Regulation
HVAC                        Heating Ventilation and Air Conditioning
CSTC-A                      Combined Security Transition Command-Afghanistan
O&M                         Operations and Maintenance
POL                         Petroleum, Oil, and Lubricants
QA                          Quality Assurance
QAR                         Quality Assurance Report
QASP                        Quality Assurance Surveillance Plan
QCR                         Quality Control Report
RRCC                        Road & Roof Construction Company
SIGAR                       Special Inspector General for Afghanistan Reconstruction
USACE-TAN                   U.S. Army Corps of Engineers-Afghanistan Engineer District-North




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                                         iii
             Construction Deficiencies at Afghan Border Police Bases Put
                           $19 Million Investment at Risk


An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghan National Security Forces (ANSF). As of June 30, 2012,
the Congress appropriated about $89.48 billion for relief and reconstruction in Afghanistan. Of this
amount, about $52.15 billion (about 58 percent) has been allocated for security. The Combined Security
Transition Command-Afghanistan (CSTC-A), under the direction of U.S. Forces-Afghanistan, uses this
funding to equip, train, base, and sustain the ANSF, which includes the Afghan National Army and
Afghan National Police. According to the Department of Defense, Report on Progress Toward Security
and Stability in Afghanistan, dated April 2012, the ANSF are ahead of schedule to achieve the end-
strength of 352,000 by October 2012. As a result of these increases, additional facilities and
infrastructure are needed to train, base, and house the Afghan forces. The Combined Security Transition
Command-Afghanistan (CSTC‐A), through the Afghanistan Security Forces Fund, provided over
$19 million to construct four Afghan Border Police (ABP) bases 1 in the Nangarhar Province on
Afghanistan’s eastern border.

For this inspection, we assessed the quality of construction and site improvements at three of the four
Afghan Border Police bases (Lal Por 1, Lal Por 2, and Nazyan) in the Nangarhar Province. Due to
weather conditions, we were unable to conduct an inspection at Khogyani; however, we reviewed
contractor quality control reports, the government’s quality assurance reports, contract specifications, and
design plans pertaining to the construction of this base. We also assessed the extent to which the
contractor followed quality control and government’s quality assurance processes at all four bases.
Specifically, we determined whether:

    •    construction was completed in accordance with contract requirements and applicable construction
         standards,
    •    facilities were being used as intended, and
    •    construction deficiencies were corrected before acceptance and transfer of the facilities to
         CSTC-A.

We conducted this inspection at Kabul, Afghanistan; Jalalabad Area Office, U.S. Army Corps of
Engineers (USACE); Jalalabad Resident Office-Forward Operating Base Hughie, USACE; and the three
ABP bases in Nangarhar Province from January to July 2012, in accordance with the Quality Standards
for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency. The engineering assessments were conducted in accordance with the Code of Ethics for
Engineers. This inspection is one in a series of four inspections of the U.S. Army Corps of Engineers-
Afghanistan Engineer District-North (USACE-TAN) construction projects we selected for review to
evaluate the construction quality of infrastructure projects funded by reconstruction funds. These
inspections evaluate the construction of facilities provided to the Afghan government by determining
whether construction complies with established standards and requirements contained in the contract,
project designs, established construction standards, and applicable laws.



1
 Among other contract requirements for Nangarhar, construction at each of the four bases consisted of utilities,
roads, and buildings. For clarity in this report, we refer to the sites as “bases” and the infrastructure items and
buildings on the bases as “facilities.”
SIGAR Inspections 12-1/Afghan Border Police Bases in Nangarhar                                                        1
BACKGROUND

The ABP contract included site improvements and the design and construction of bases to support the
ABP units in Nangarhar Province on Afghanistan’s eastern border. The contract scope of work included
four ABP bases: Lal Por 1, Lal Por 2, Nazyan, and Khogyani. USACE-TAN constructed the bases under
a firm-fixed-price contract (W917PM-08-C-0065), awarded on June 30, 2008, to Road & Roof
Construction Company (RRCC) for $18,668,630, with an estimated completion date of July 7, 2009. The
scope of work was defined as the management, design, material, labor, and equipment to design and
construct and/or refurbish all utilities, roads, buildings, force protection measures, site security, de-mining
activities, and other features referenced in the contract. The contract had 11 amendments that increased
the total contract obligations by $527,949 to $19,196,579 and extended the completion date to June 20,
2011. Appendix II provides more detailed information on the contracted cost for each of the four bases
under the contract.


Scope of Contractor Work

The contract’s scope of work required the contractor to design and make site improvements and construct
facilities at four locations in accordance with the requirements stated in the contract. The project included
the following activities and services:

    •   Site security (provide perimeter force protection security during construction)
    •   Surveys and site planning (perform a geotechnical investigation, leach field testing, water well
        capacity testing, a topographic survey of the site, and prepare site paving, grading, utility, and
        drainage plans, with existing grades, proposed grades, and building finished floor elevations,
        based on information contained in the Request for Proposal)
    •   De-mining (clear all mines and unexploded ordnance from the entire site)
    •   Demolition and grading (demolish all existing structures and buildings at the site prior to
        commencement of new work and remove and dispose of all debris, concrete, and foundations)

Specifically, for each base, the scope of work required the contractor to construct the following:

    •   Administration building with a communications room and arms room
    •   Barracks (private/semi-private and open-bay)
    •   Logistics building
    •   Dining facility (DFAC) to include outside wood stoves
    •   Toilet, ablution, shower, and laundry building (eastern style toilets)
    •   Vehicle maintenance
    •   Petroleum, oil, and lubricants (POL) building
    •   Warehouse
    •   Vehicle parking
    •   Fuel storage and vehicle refuel point
    •   Ammunition supply point
    •   Guard shack - gate house
    •   Guard towers


SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                2
        •     Perimeter force protection wall
        •     Well house
        •     Road network (including sidewalks and curbing)
        •     Site utilities
        •     Entry control points (including canopy at main entry control point)
        •     Trash point
        •     Two flagpoles

Additionally, for each facility, the scope of work required the contractor to design and construct the
following:

        •     Water system
        •     Sanitary sewer
        •     Storm drain system
        •     Electrical distribution system


Project Design and Specifications

The contractor prepared individual design documents for each base. All four of the designs were similar
in nature. According to the contract, all design and construction was to be in accordance with current
U.S. and International Building Codes and standards. The contractor was required to develop a 35 percent
site plan review after the contract was awarded. Incorporating the comments from CSTC-A and
USACE-TAN, the contractor design drawings were to progress to 99 percent and then to 100 percent
design, for construction to begin. After construction, a complete set of “as-built” 2 drawings were to be
provided by the contractor to reflect what was actually constructed.


CONSTRUCTION QUALITY WAS GENERALLY INADEQUATE AND
CONTRACTOR AND GOVERNMENT OVERSIGHT DID NOT ENSURE
CONSTRUCTION DEFICIENCIES WERE REMEDIATED


Lal Por1Base. During the inspection of the base on February 16, 2012, we found that the structural
construction of facilities generally met contract and design specifications. 3 However, construction quality
of critical components was generally inadequate and required remediation. See appendix V for details on
the discrepancies we identified during our inspection. The following are examples of some of the
discrepancies we identified:

        •     The storm drain system was not constructed according to the design. Spacing of storm water
              inlets (gaps) in curbing was not completed in accordance with the as-built drawings (every
              3,000 mm). The incorrect spacing in the curbing allows storm water to stay on roadways and not
              drain into storm water ditches. Water accumulation on the roads may cause flooding, erosion,
              and structural failures, such as what we observed at Nazyan, due to recent rain (see photos 1 and
              14).

2
    “As-built drawings” are a revised set of design drawings that show the final condition of what was actually constructed in the field.
3
 Two barracks were locked and keys were not available for us to inspect them; consequently, we could not verify the
use and quality of the interior construction.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                               3
    •    Heating Ventilation and Air Conditioning (HVAC) was improperly constructed. Specifically,
         duct work in the Latrine building did not conform to the design documents. HVAC elbows (bends)
         were straight 90 degrees, not sweep 90 degrees 4 as required in the design documents. There was
         no evidence of turning vanes inside the elbows.5 Joints were also finished unsealed which can
         cause air leakage and reduce the flow out of the registers. The improperly constructed HVAC
         system places additional stress on the HVAC equipment, which can significantly increase
         maintenance and repair costs.
    •    Electrical and mechanical door openers installed on the roll-up doors of the Logistics and
         Warehouse buildings were inoperable. Also, doors were stuck in the open position. This
         increased the risk of unauthorized access and facilitated weather intrusion into the buildings, such
         as rain, snow, and humidity.
    •    The water tower was missing insulation. As a result, water inside pipes can freeze and cause pipes
         to burst. Additionally, in warm and humid months, the exposed portion of the pipe can “sweat”
         causing possible damage to the insulation on the lower portion of the pipe (see photo 2).
    •    The generator fuel piping was leaking diesel fuel, wasting fuel and creating a possible fire and
         other environmental hazards (see photo 3).
    •    Drain piping was not installed in one of the DFAC sinks. As a result, wastewater draining from
         the sink will drain directly to the floor and not enter the wastewater system, causing water
         damage and possible flooding (see photo 4).


Photo 1: No Storm Drain Inlets                             Photo 2: Water Tower Missing Pipe Insulation




Source: SIGAR Photo Lal Por 1 February 16, 2012            Source: SIGAR Photo Lal Por 1 February 16, 2012




4
 Straight 90 degree elbows cause turbulent air flow and reduce the air velocity compared to sweep 90 degrees.
5
 Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                   4
Photo 3: Leaking Fuel Lines on Generator                      Photo 4: Unconnected Drain Pipe




Source: SIGAR Photo Lal Por 1 February 16, 2012               Source: SIGAR Photo Lal Por 1 February 16, 2012




Lal Por 2 Base. During the inspection of the base on February 16, 2012, we found that the facilities’
construction was complete, but the structural construction and some critical components generally did not
meet contract and design specifications. 6 Because some of these deficiencies were of a time-critical
nature, such as the lack of a viable water supply, septic system piping, and storm water erosion, we
provided a briefing to USACE-TAN on April 19, 2012, to discuss our concerns and potential solutions.
See appendix VI for details on the deficiencies we identified during our inspection. The following are
examples of some of the deficiencies we identified:

    •    As part of preparing the site for construction, site testing for the presence of water had indicated
         that the water supply was very weak and would not meet the minimum requirements7 to sustain
         the base. The contractor had made three previous attempts to drill a well at the Well House,
         including installation of a temporary and a permanent pump. The permanent pump had become
         stuck at 157 meters in depth during installation. During our inspection, we observed another
         attempt underway by the contractor to drill a fourth well at a different location since the Well
         House had been demolished and needed to be reconstructed. Even after four attempts to drill a
         well, there continued to be no viable water supply. While water could be transported to the site
         via trucks, from an economical and logistical standpoint this could be a very expensive alternative
         and unsustainable over time. In commenting on a draft of this report, USACE-TAN noted that
         additional drilling the week of June 17, 2012, had been unsuccessful and that its program and
         project management and area engineers are performing analyses to identify the resources and
         options available to resolve the issue.
    •    The contractor constructed the septic tank without critical pipes, as required by the design
         drawings. If a viable water supply is found and a well is completed and used before the septic
         system issues are resolved, the septic system may not work as designed. The missing septic tank
         pipes do not provide any back-up if the installed pipe becomes plugged with debris, and will
         cause sewage to backup and flow out around the site. This deficiency could further negatively
         impact site habitation. During the briefing with USACE-TAN officials, we discussed our
         concerns and they stated they would ask the contractor to prepare a plan of action to repair the


6
  We could not verify the use and quality of the interior construction of one of the barracks, since it was locked and
keys were not available.
7
  ANSF O&M Continuity Handbook, ANSF O&M Engineering and Project Management Branch, Afghanistan
Engineer District- North: “Engineering-Civil, Structural, Electrical, Mechanical and Cost,” dated May 2012.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                            5
            deficiencies. As of June 14, 2012, the issue remains unresolved. In commenting on a draft of this
            report, USACE-TAN provided additional information on the status of the septic deficiencies.
       •    The storm drain system was not constructed according to design. Spacing of storm water inlets
            (gaps) in curbing was not completed per as-built drawings (every 3000 mm). The incorrect
            spacing in the curbing allows storm water to stay on roadways and not drain into storm water
            ditches. Water accumulation on the roads may cause flooding, erosion, and structural failures
            (see similar issue at Nazyan at photo 14).
       •    The contractor did not construct an erosion protection area (riprap) on the southern exterior edge
            of the protection wall, as required in the design drawings. The missing riprap was causing severe
            erosion outside the protection wall, which will eventually undermine the wall and possibly cause
            the wall to fail near the discharge point. During the briefing with USACE-TAN on April 19,
            2012, we expressed our concerns, and they stated they would ask the contractor to prepare a plan
            of action to repair the deficiencies in the erosion protection area, as required in the design
            drawings. As of June 14, 2012, the issue remains unresolved (see photo 5).
       •    Based on our observation, one of the guard tower columns was improperly constructed. The
            design indicated that a buried concrete block, called a “spread footing,” was to be installed
            800 mm deep. Instead, we noted that the column was resting directly on the surface with no
            footing. If the column is constructed without a footing, there is a risk of structural failure to the
            guard tower (see photo 6).
       •    The HVAC was improperly constructed. Duct work in the latrine building did not conform to the
            design documents. HVAC elbows (bends) were straight 90 degrees, not sweep 90 degrees as
            required in the design documents. 8 There was no evidence of turning vanes inside the elbows.9
            Joints were also finished unsealed which can cause air leakage and reduce the flow out of the
            registers. The improperly constructed HVAC system places additional stress on the HVAC
            equipment ,which can significantly increase maintenance and repair costs. Additionally, wall
            perforation for HVAC duct was left unfinished and duct ceiling supports were not all attached
            (see photos 7 and 8).
       •    Construction quality for several of the structures and fixtures we observed was poor or
            incomplete, as evidenced by improper material substitution for the rebar material used for ladders
            (see photo 9), ceramic wall tiles which had fallen off the wall (see photo 10), soil subsidence
            around buried piping (see photo 11), and missing door sills (see photo12).




8
    Straight 90 degree elbows cause turbulent air flow and reduce the air velocity compared to sweep 90 degrees.
9
    Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                       6
Photo 5: Missing Erosion Protection                     Photo 6: Guard Tower Column Unsupported




Source: SIGAR Photo Lal Por 2 February 16, 2012         Source: SIGAR Photo Lal Por 2 February 16, 2012




Photo 7: Wall Perforation Not Finished                  Photo 8: HVAC Duct Supports Not Attached




Source: SIGAR Photo Lal Por 2 February 16, 2012         Source: SIGAR Photo Lal Por 2 February 16, 2012




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                             7
Photo 9: Improper Material Substitution (Rebar
Material Used for Ladder)                              Photo 10: Tiles Fallen Off Wall




Source: SIGAR Photo Lal Por 2 February 16, 2012        Source: SIGAR Photo Lal Por 2 February 16, 2012




Photo 11: Soil Subsidence                              Photo12: Missing Door Sill




Source: SIGAR Photo Lal Por 2 February 16, 2012        Source: SIGAR Photo Lal Por 2 February 16, 2012




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                            8
Nazyan Base. During our inspection of the base on February 17, 2012, we found that the facilities’
construction was complete and structural construction 10 generally met contract and design specifications.
However, construction quality of critical components, such as the septic system, was generally inadequate
and required remediation. We also identified a major issue concerning the septic system, which we
addressed on April 19, 2012, in a briefing to USACE-TAN officials. See appendix VII for details on the
deficiencies we identified during our inspection. The following are examples of some of the deficiencies
we identified:

     •   The generator fuel piping was leaking diesel fuel. As a result, fuel will be wasted, and the leak
         may create a fire and other environmental hazards (see photo 13).
     •   The storm drain system was not constructed as designed. Spacing of storm water inlets (gaps) in
         curbing was not completed in accordance with the as-built drawings (every 3000 mm). The
         incorrect spacing in the curbing allows storm water to stay on roadways and not drain into storm
         water ditches. Water accumulation on the roads may cause flooding, erosion, and structural
         failures (see photo14).
     •   The septic system was not built according to the design specifications. We observed sewage
         rising into the manhole shafts. According to the as-built drawings, there should have been 300
         mm between the liquid level and the tank ceiling. As a result of the deficiency, sewage will
         continue to back up into the pipes and eventually overflow. 11 Once this happens, the base could
         eventually become unfit for human habitation. In response to our briefing with USACE-TAN
         officials on April 19, 2012, they held a meeting with RRCC on May 13, 2012, in an attempt to
         resolve the deficiencies and complete the project. RRCC indicated they had visited the site on
         May 9, 2012, to investigate the septic system flow obstruction (see photo 15). In commenting on
         a draft of this report, USACE-TAN stated that the septic system deficiencies had been
         remediated by the contractor; however, USACE-TAN had not conducted a site visit to verify the
         contractor’s work.
     •   The HVAC was improperly constructed. Ducting in the Latrine building did not conform to the
         design documents. HVAC elbows (bends) were straight 90 degrees, 12 not sweep 90 degrees as
         required in the design documents. There was no evidence of turning vanes inside the elbows.13
         Joints were also finished unsealed, which can cause air leakage and reduce the flow out of the
         registers. The improperly constructed HVAC system places additional stress on the HVAC
         equipment, which can significantly increase maintenance and repair costs (see photo 16).
     •   Electrical and mechanical door openers installed on the roll-up doors of the logistics and
         warehouse buildings were inoperable. Also, doors were stuck in the open position. This
         increased the risk of unauthorized access and facilitated weather intrusion into the buildings, such
         as rain, snow, and humidity.




10
   Structural concrete work generally met contract and design specifications. Construction deficiencies identified
generally related to finish and utility work.
11
   Septic systems are designed to keep the liquid level below the manholes and roughly level with the inlet and outlet
pipes. Sewage levels that are higher than the inflow and outflow pipes and high enough to flow up into manholes,
usually indicates that the system was either designed “undersized” or was improperly constructed.
12
   Straight 90 degree elbows cause turbulent air flow and reduce the air velocity compared to sweep 90 degrees.
13
   Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                        9
Photo13: Leaking Fuel Tank                              Photo14: No Storm Drain Inlets




Source: SIGAR Photo Nazyan February 17, 2012            Source: SIGAR Photo Nazyan February 17, 2012
                                                        Note: Distance shown in red oval appears to be ~100m with
                                                        no inlets. Inlets are required every 3000 mm (118 inches).




Photo15: Sewage Level Rising into Manhole               Photo 16: Straight HVAC 90 Degree Bends




Source: SIGAR Photo Nazyan February 17, 2012            Source: SIGAR Photo Nazyan February 17, 2012




Quality Control and Quality Assurance Was Not Adequate and Did Not Ensure
Construction Deficiencies Were Remediated

Obtaining quality construction is the responsibility of both the construction contractor and the
government. The Federal Acquisition Regulation and USACE regulations require the contractor to
develop and comply with a quality control plan and USACE-TAN to develop and comply with a quality
assurance plan. However, neither the contractor nor nor USACE-TAN followed their quality assurance
processes. In commenting on a draft of this report, USACE-TAN stated that critical security and access
issues were the root cause for the specific quality management discrepancies cited in our report. We
agree that security impacts the government’s ability to perform verification of construction completion
and recognize security will continue to be a significant challenge to all oversight entities conducting work
in Afghanistan. However, site visits, and other oversight activities, are necessary to provide assurance
that the U.S. government does not pay, or that the contractor compensates the U.S. government, for work
not performed or for work performed unsatisfactorily.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                        10
Contractor Did Not Follow Its Quality Control Process

The construction contractor—RRCC—did not exercise adequate quality control. RRCC developed a
Contractor Quality Control Plan, dated 16 July 2008. 14 The intent of this plan was to manage, control,
and document the contractor’s activities to ensure compliance with contract plans and specifications, as
well as quality construction. RRCC was also required to develop daily quality control reports (QCRs) to
document quality control operations in support of the quality control plan. When properly prepared, the
QCRs provide a record of quality control procedures, along with an assessment of the adequacy of the
work performed in accordance with design specifications.

We reviewed daily QCRs for the period August 7, 2008 through September 19, 2011, which USACE-
TAN provided, and found that the QCRs did not adequately document quality control procedures or
determine whether the contractor’s work was performed in accordance with design specifications. The
QCRs only provided a list of the work performed, but did not provide an assessment of the adequacy of
the work. They essentially represented daily logs of construction activity and general information about
the personnel on site, rather than providing a record of quality control procedures such as soil tests and
repair of infrastructure items. The lack of an adequate quality control process was apparent, based on the
significant deficiencies we identified with septic tank piping and the water supply, as well as other
construction deficiencies, which were not identified or documented by RRCC.

USACE Did Not Follow Its Quality Assurance Process

USACE-TAN did not provide adequate monitoring and oversight over the contractor. USACE Engineer
Regulation (ER) 1180-1-6 requires the contracting officer to clearly define the quality of materials and
workmanship required for a project, and to ensure that construction contractors comply with the contract
document and produce the required product. The regulation requires a quality assurance (QA) process to
include preparation of a Quality Assurance Surveillance Plan (QASP), review of contractor quality
control plans, enforcement of contract clauses, maintenance of quality assurance and quality control
inspection and work records, and acceptance of completed construction.

In accordance with USACE ER 1180-1-6 (paragraph12 (a)), in order to comply with the QASP, USACE-
TAN QA personnel were required to conduct QA tests at the job site to

     •   assure acceptability of work completed,
     •   monitor contractor procedures for tracking construction deficiencies,
     •   ensure acceptable corrective action, and
     •   ensure an adequate audit trail was maintained.

To document these procedures, QA personnel were required to prepare Quality Assurance Reports
(QARs) for each visit day at the construction site. When QA personnel could not visit the site on a
particular day, the next QAR should have clearly articulated the events occurring subsequent to the last
visit. ER 1180-1-6 (paragraph 12(e)) further required the resident/project engineer to ensure that the QAR
contained all pertinent items of information to support the accuracy and completeness of the QAR. The
resident/project engineer should have reviewed and initialed the reports, and performed follow-up as
deemed necessary, to ensure identified deficiencies were corrected, acceptable, and adequately
documented in an audit trail. However, based on our review of numerous QARs and interviews with
USACE-TAN and resident engineering officials, USACE’s implementation of the QASP was not
adequate to ensure effective oversight.



14
  The Contractor Quality Control Plan was specific to the Afghan Border Police Company Headquarters for Lal Por
1, Lal Por 2, Nazyan, and Khoygani bases.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                11
USACE-TAN provided 587 QARs for all four bases, for the period August 2008 through August 2011. 15
Based on our review of a sample of 60 QARs, 16 we found that QARs did not provide sufficient
information concerning the contractor’s performance; nor were they always prepared on a daily basis, as
required by ER 1180-1-6. For example, QARs were either incomplete with regard to corresponding
QCRs, not always signed by responsible quality assurance representatives, or not being properly tracked
to show an audit trail of the status of actions taken or mitigation activities. Of the 60 QARs we reviewed:

     •   Twenty-one reports (35 percent) identified that QA tests had been conducted. These tests verify
         compliance or noncompliance with construction specification requirements; and of the 21, only
         4 (19 percent) provided sufficient detail or specific information to support the acceptability of the
         completed work.
     •   Thirty-three reports (55 percent) were signed by the responsible QA representative.
     •   None of the 60 QARs had corresponding contractor QCRs attached or indicated that the
         corresponding QCR was being filed with the QAR.
     •   Only one QAR tracked deficiencies or provided an adequate audit trail to prevent the same or
         similar deficiencies from re-occurring.


SOME FACILITIES WERE NOT USED FOR INTENDED PURPOSES AND OTHERS
WERE NOT OCCUPIED

Although each base was designed to house 93 personnel, 17 during our inspections on February 16 and 17,
2012, we observed that most facilities at these bases were either unoccupied or were not used for the
intended purpose. Also, the entire Lal Por 2 base was not used at all due to the lack of a viable water
supply. As a result, Lal Por 2 is not included in the following table. Table 1 summarizes our
observations of facility usage at Lal Por 1 and Nazyan.




15
   587 QARs, from the bases, as follows: Lal Por 1 (155), Lal Por 2 (119), Nazyan (154), and Khogyani (159).
Although we were unable to visit Khogyani, we did obtain and review QARs.
16
   As part of our review, we selected every tenth QAR, beginning with one (e.g., 1, 11, 21, 31, etc.) for a total of 60,
to review and assess quality assurance for the four bases: Lal Por 1 (16 of 155); Lal Por 2 (12 of 119); Nazyan (16 of
154); and Khogyani (16 of 159).
17
   Nangarhar ABP contract (W917PM-08-C-0065).

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                        12
    Table 1. Facility Usage
    Building                 Lal Por 1                    Nazyan                    Purpose
    101-administrative       Partially occupied           Partially occupied        Offices
    102 & 202-barracks       Unoccupied                   Unoccupied                Living quarters
    203-latrine              Unoccupied                   Unoccupied                Toilets/showers
    DFAC                     Unoccupied                   Unoccupied                Dining facility
    401-logistics            Storage/billeting            Used as garage            Storage
    601-warehouse            Firewood storage             Used as garage            Storage
                                                                                    Petroleum, oil, and lubricants
    602-POL                  Unoccupied                   Used for billeting
                                                                                    storage
    403/402-ammunition                                                              Ammunition storage
                             Unoccupied                   Unoccupied
    supply point
                             Used as a well, chicken                                Covering for well head and
    800-well house                                        Operational
                             house                                                  equipment
    990-propane              Used as kitchen              Unoccupied                Bottled propane storage
                             Diesel tank with                                       Fuel storage and distribution
                             gasoline; generators         Generators operational,
    Fuel point
                             operational but not          but not running
                             running
                                                          Operational but with      Sewage disposal
    Septic tank/leach
                             Operational                  several problematic
    field
                                                          issues.
    Water tank               Operational                  Operational               Potable water storage
    Source: SIGAR results of site visits from February 16 and 17, 2012.

The administration buildings were used as a combination office and housing for officers. Because the
DFACs were not used, any cooking or eating occurred either in other on-site buildings or off-site. The
logistics and warehouse buildings were used to store food or firewood, or were used as a garage. Use of
the facilities on the bases was further impacted, because electrical power was only available for a few
hours each day in order to conserve generator fuel. We noted other instances of inappropriate use of
facilities. For example, at Lal Por 1, the well house was used as a chicken house, increasing the risk of
sanitation and health issues (see photo 17). In addition, the propane storage building was used as a
makeshift kitchen (see photo 18). At Nazyan, the POL and administration buildings were used as living
areas (see photos 19 and 20).


Photo 17: Lal Por 1, Well House Used as                         Photo 18: Lal Por 1, Propane Storage Building
Chicken House                                                   Used as Makeshift Kitchen




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                        13
Source: SIGAR Lal Por 1, February 16, 2012.                 Source: SIGAR Lal Por 1, February 16, 2012.


Photo 19: Nazyan, POL Building Used as Living Photo 20: Nazyan, Administration Building Used
Area                                          as Living Area




Source: SIGAR Photo February 17, 2012                     Source: SIGAR Photo February 17, 2012




BASES WERE TRANSFERRED AND ACCEPTED WITH SIGNIFICANT
CONSTRUCTION DEFICIENCIES AND INADEQUATE DOCUMENTATION

USACE-TAN accepted bases from the contractor and transferred them, via the DD Form 1354, to
CSTC-A before construction deficiencies had been either completely identified or remediated. For
example, the significant issues we identified with the septic system and water supply during our
inspection at the three bases had not been identified and included on the Master Deficiency List (or
Master Punch List). In addition, USACE-TAN did not appropriately remediate the identified deficiencies
before closing out the construction contract, by holding RRCC to the terms of the contract for final
acceptance. While ER 415-345-38 allows for facility transfer to the customer with minor deficiencies, the
resident area engineer should have ensured that identified deficiencies were completed within the 1-year
warranty period, from the date of acceptance. 18

RRCC informed the USACE-TAN contracting officer that work under the construction contract
conformed to the contract requirements and was free of any defect in equipment, material, or design
furnished, or workmanship performed by RRCC or any of its subcontractors. Based on our concerns, we
met with USACE-TAN and CSTC-A officials and they agreed to follow up with the contractor for
resolution of the deficiencies.

In response to a draft of this report, USACE-TAN stated that many of the deficiencies we identified were
resolved by the contractor in June 2012, including uneven floor finishing, missing door sills, masonry
repair around doors, water heaters missing valves, missing bathroom fixtures, missing insulation on water
tower piping, and leaking fuel tanks. USACE-TAN attributed the lack of validation of repairs to security
conditions. However, USACE-TAN stated it made a written request to the contractor to (1) address the
deficiencies, by item; (2) clarify if the contractor corrected the reported deficiencies and provide an
explanation if they have not done so; and (3) provide the estimated completion date for the remaining
repairs and its ability to overcome access and security issues preventing project completion. USACE-

18
 Based on our review of the DD1354s, CSTC-A accepted the four Nangarhar Border Police bases, including all
facilities, on the following dates: 1) Lal Por 1 (July 15, 2011); 2) Lal Por 2 (July 26, 2011); 3) Nazyan (May 5,
2011); 4) Khogyani (July 26, 2011).

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                       14
TAN further noted that it is unable to identify any willing or qualified Local National Quality Assurance
personnel to conduct the inspections as of the week of June 24, 2012, and the Jalalabad Area Office
officer-in-charge and engineer are currently planning a visit on August 12, 2012.

USACE-TAN stated that it has officially notified RRCC of the remaining deficiencies within the warranty
period, is working with the contractor to determine the estimated completion date for resolving those
deficiencies, and has withheld $684,000 in retainage and liquidated damages pending satisfactory
closeout submittal and approval. Further, if the contractor is unable to resolve the remaining deficiencies,
USACE-TAN stated it would pursue contractual methods to ensure that it does not pay, or that the
contractor compensates the U.S. government, for work not performed.

We also identified deficiencies pertaining to technical documentation and training associated with the
transfer of completed facilities. In accordance with USACE ER 415-345-38, Transfer and Warranties,
Operations and Maintenance (O&M) manuals should be provided in draft at the time of transfer with final
versions provided no later than 30 days after transfer of completed facilities. In addition, all technical
documents and training of personnel required for safe and effective operation of the facilities should be
provided before the facility is occupied. USACE-TAN informed us that RRCC did not provide
operations and maintenance manuals or provide the required instruction and training on operations and
maintenance to the end user, 19 other than “one-time” training on the operation of the generator at Lal Por
1. In addition, USACE ER 415-345-38 requires the contractor to provide facility keys as part of the
transfer package. As documented in our inspection visits, facilities maintenance personnel at the bases
did not have keys 20 to all buildings and doors nor were they always aware of how to operate the
equipment, such as the generators at Lal Por 2. In commenting on a draft of this report, USACE-TAN
stated it would obtain the remaining technical documents required for safe and effective facility
operations prior to contractor completion of work and any further payments.


CONCLUSION

Security issues and access to facilities during construction will continue to hamper U.S. government
efforts to ensure that construction is properly executed and is constructed in accordance with contract
terms. Many of the facilities inspected had several serious design and construction deficiencies, including
health issues resulting from improper construction. Several critical construction issues, such as lack of
water and repairing the septic system at Lal Por 2 and septic tank piping at Nazyan, remain unresolved.
Moreover, outstanding deficiencies prior to the U.S. government’s acceptance of completed Afghan
Border Police facilities resulted in remediation and, potentially, additional cost. According to USACE-
TAN, the contractor has repaired many of the construction deficiencies we identified, but USACE-TAN
has been unable to confirm that these repairs were completed, due to security issues. As a result, the $19
million obligated on the original contract is at risk.


RECOMMENDATIONS

To ensure that construction is completed in accordance with contract requirements and applicable
construction standards at the four Afghan Border Police bases at Nangarhar Province, SIGAR
recommends that the Commanding General of the U.S. Army Corps of Engineers, direct USACE-TAN to
correct the construction deficiencies we identified as well as any open deficiencies on the Master
Deficiency List for these bases. Specifically, we recommend that USACE-TAN:


19
   CSTC-A stated that in most cases, training is only provided to the O&M contractor. No other trainees typically
attend.
20
   CSTC-A stated that keys are usually provided to the NATO Infrastructure Training and Advisory Group personnel
or senior Afghan commanders.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                  15
    1. Review the current status of construction deficiencies identified as part of the transfer of the four
       bases, including the critical water supply and septic and sewage system deficiencies we identified
       during the briefing in April 2012, and determine a resolution that is in the best interest of the U.S.
       government and without unnecessary additional government cost. Specifically, determine the
       method of repair for the deficiencies still outstanding, including:
            a. Remediation by the contractor, as part of complying with the contract terms.
            b. Recovery under warranty, as stipulated in the contract remediation timeframes and
               warranty terms.
            c. Determining whether retainage and liquidated damages should be released to the
               contractor as part of the satisfactory closeout of the contract.
    2. Based on the determination in recommendation 1, prepare a plan of action for the repairs and
       ensure the repairs are completed, inspected, and approved as expediently as possible.
    3. For ongoing and future construction contracts, adhere to the requirements of the Federal
       Acquisition Regulation and USACE ER 1180-1-6 for effectively managing a Quality
       Management Program, by ensuring:
            a. Each USACE Resident/Area Office is aware of and has access to the applicable Quality
               Assurance Surveillance Plan.
            b. The contractor has developed an effective Contractor Quality Control Program, which is
               adequately monitored and assessed through the Quality Assurance Program.
            c. Construction deficiencies are tracked and remedied in a timely manner, to ensure quality
               construction is delivered at completion of the project, as part of the transfer process.
    4. Per the terms of the transfer process, ensure that Road & Roof Construction Company provides
       the requisite operations and maintenance manuals as well as the appropriate technical documents
       and supporting training required for safe and effective operation of the facilities.


COMMENTS

We provided a draft of this report to USACE-TAN for comment. USACE-TAN provided both general
and technical comments and clarifications, particularly relating to security in conducting oversight, which
we incorporated into this report, as appropriate. We also provided a draft of this report to the U.S. Central
Command for technical comment although they did not provide comments. USACE-TAN comments are
reproduced in appendix VIII of this report.

Overall, USACE-TAN concurred with the recommendations and stated steps it has taken or plans to take
to address them. The report was modified to incorporate USACE-TAN’s concern that security and access
issues routinely affect all project and quality management activities for contractors and impact the ability
of the government to perform verification of construction quality. We recognize that security is a
challenge within Afghanistan that will continue to hamper U.S. government oversight responsibilities.

USACE-TAN stated that it will continue to implement recommendation 1, and noted that numerous
deficiencies identified in the report have already been resolved by the contractor during June 2012.
However, USACE-TAN has not verified the completion due to security issues and is working with the
contractor to determine the estimated completion date. USACE-TAN stated that it officially notified the
contractor to remediate the remaining deficiencies within the contract warranty period and that it has
withheld $684,000 in retainage and liquidated damages pending satisfactory closeout submittal and
approval. In addition, USACE-TAN stated that it will pursue contractual methods to ensure that USACE-
TAN does not pay, or the contractor compensates USACE-TAN, for work under warranty the contractor
cannot resolve. Further, USACE-TAN noted that it was confident the issues would be resolved without


SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                              16
unnecessary additional government expense. Recommendation 1 was modified from the draft report to
add that retainage and liquidated damages should be determined and released to the contractor as part of
the satisfactory closeout of the contract; and deleted reference to conducting repairs by means of the
USACE operations and maintenance contract.

USACE-TAN concurred with recommendation 2 and stated that it would identify the best course of
action and implement the plan as expediently as possible based on the results of the contractor’s
continuing work and in coordination with CSTC-A.

USACE-TAN concurred with recommendation 3 and cited actions to improve the established Quality
Management Program and would strive to improve its quality management process and documentation.
Specifically, it has prepared a plan to improve the project management and business process for
construction contracts. This includes actions to ensure that all contract awards include a QASP and that
contracting officials responsible for providing contract oversight and administration are properly trained.
USACE-TAN concurred with recommendation 4 and stated that it plans to obtain the remaining technical
documents required for safe and effective facility operations prior to contractor completion of work and
any further payment.

Overall, we found USACE-TAN’s comments to be responsive to the recommendations and we urge
USACE-TAN to pursue the planned actions addressed in its comments.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                            17
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of project assessments of Afghan Border Police (ABP) bases in Nangarhar
Province by the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR). This
inspection report is one in a series of four inspections of construction projects contracted by the U.S.
Army Corps of Engineers.

To determine whether the construction was completed in accordance with contract requirements and
applicable construction standards, we:

    •   reviewed contract documents, design submittals, geotechnical reports to understand project
        requirements and contract administration;
    •   interviewed cognizant U.S. and Afghan government officials responsible for the construction
        project; and
    •   conducted physical inspections at Lal Por 1, Lal Por 2, and Nazyan ABP bases to observe the
        current status of the quality of construction and photographed construction deficiencies.

To determine if the facilities were being used as intended, including operations and maintenance, we:

    •   reviewed quality management documentation to understand project requirements and the
        contractor’s quality control and government quality assurance processes, and
    •   interviewed cognizant U.S. and Aghan government officials responsible for the construction
        project.
We were unable to inspect one base, Khogyani, due to weather conditions. In addition, we were unable to
verify early construction activities such as foundation work and underground utilities at any of the bases,
since the early stage of the construction were buried, and construction photographs pertaining to the early
months of construction were unavailable for our review. We determined the extent to which quality
control and quality assurance was documented by reviewing Quality Control Reports (QCRs) and Quality
Assurance Reports (QARs), contract specifications, and design documents.

We conducted work at Kabul, Afghanistan; Jalalabad Area Office, U.S. Army Corps of Engineers
(USACE); Jalalabad Resident Office-Forward Operating Base Hughie, USACE; and three Afghan Border
Police (ABP) bases in Nangarhar Province from January to July 2012, in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on Integrity
and Efficiency. These standards were established to guide all inspection work performed by the Offices
of Inspector General. The engineering assessments were conducted in accordance with the Code of Ethics
for Engineers. We did not rely on computer-processed data in conducting this inspection. We considered
the impact of compliance with laws and fraud risk.

We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our inspection objectives. This inspection was conducted by the Office of the Special Inspector
General for Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, the
Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                           18
APPENDIX II: SUMMARY OF W917PM-08-C-0065

The United States Army Corps of Engineers (USACE), Afghanistan Engineer District 21 awarded contract
W917PM-08-C-0065, on June 30, 2008, to the Road & Roof Construction Company (RRCC) for
$18,668,630. As of October 2, 2011, the contract had been amended 11 times increasing the cost to
$19,196,579.

The following are some provisions of the contract:

The firm-fixed-price contract was for design and construction of site improvements and construction of
facilities to support the Afghan Border Police (ABP) units in Afghanistan. In addition, the contract
referenced the management, design, material, labor, and equipment to design and construct and/or
refurbish all utilities, roads, buildings, force protection measures, site security, de-mining activities, and
other features.

Among other things, the contract provided for liquated damages of $1,900 for each calendar day of delay
until the work was completed or accepted, if the contractor failed to complete the work within the time
specified in the contract. The contract also provided for unusually severe weather delays, in January,
February, and March, that were to be calculated chronologically from the first to the last day in each
month. If the number of actual unusually severe weather days exceeded the number of days anticipated,
the contracting officer would determine whether the contractor was entitled to a time extension.

The contract contained five contract line item numbers that specified the unit price for site construction
for four ABP bases and the associated Defense Base Act insurance. Table I shows the contract line item
numbers, titles, and amounts for each base and for insurance.


        Table I: Summary of Costs-W917PM-08-C-0065
        Contract Line                                                                     Initial
                         Contract Line Item Title
        Item Number                                                                     Amount
        0001             Khogyani Border Police Facility                           $ 4,813,720
        0002             Lal Por 1 Border Police Facility                            4,545,400
        0003             Lal Por 2 Border Police Facility                            4,483,240
        0004             Nazyan Border Police Facility                               4,767,950
        0005             Defense Base Act Insurance                                     58,320
                         Total Contract Price                                      $18,668,630

        Source: Contract W917PM-08-C-0065

As of October 2, 2011, USACE-TAN amended the contract 11 times. The amendments increased the
contract cost by $527,949 to $19,196,579 and increased the period of performance by 715 days.
Additionally, the U.S. government gave up $543,243 in liquidated damages in exchange for the contractor
not pursuing a Request for Equitable Adjustment. The amendments are summarized in table II.




21
 In 2009, the Afghanistan Engineer District was divided into two districts—the North (now referred to as USACE-
TAN) was established in 2004 and the South was added in 2009.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                    19
Table II: Summary of Amendments to Contract W917PM-08-C-0065
Modification                                               Statement of Work                Contract Time                  Contract Price
                            Effective Date
Number                                                     Modification                     Change                         Change
                                                           Time extension for
A00001                      December 8, 2008               Khogyhani for security                   +48 days               No price change
                                                           shutdown.
                                                           Resume work at
                                                           Nazyan Site.
A00002                      February 14, 2009                                                       +38 days                      $19,968.50
                                                           Adjustment for right of
                                                           entry.
                                                           Suspension of work at
                                                           four sites. De-mine/
A00003                      April 23, 2009                 survey due to                            +42 days                    $252,522.00
                                                           relocation of Khogyani
                                                           site.
A00004                      June 18, 2009                  Weather delay                             +4 days               No price change
A00005                      October 29, 2009               Holidays                                  +3 days               No price change
A00006                      November 16, 2009              Security issues                           +3 days               No price change
A00007                      January 6, 2010                Security issues                          +21 days               No price change
                                                           Delay in two
A00008                      January 11, 2010                                                        +65 days                    $255,458.00
                                                           submittals
A00009                      January 11, 2010               Weather delay                            +24 days               No price change
A00010                      April 7, 2010                  Weather delay                             +1 days               No price change
                                                           Equitable Adjustment:
                                                           delays due to weather,
                                                           security issues, and
                                                           long approval times by
                                                           U.S. government for
          22
A00011                      October 2, 2011                some submittals which                    +467 days              No price change
                                                           affected contractor's
                                                           progress, vs.
                                                           liquidated damages to
                                                           be assessed by the
                                                           U.S. government.
                                                                                            Total                               $527,948.50
Source: SIGAR summary of contract amendments as of February 29, 2012.




22
   Amendment A00011, effective October 2, 2011, extended contract completion by 467 calendar days. The contract completion date was revised
to June 20, 2011; the contract price remained unchanged. The additional time granted was used to offset the contractor’s Request for Equitable
Adjustment, whereby the contractor agreed to withdraw the Request for Equitable Adjustment and all associated costs. The amendment
constituted compensation in full on behalf of the contractor and its subcontractors and suppliers, for all costs and markups directly or indirectly
attributable for the change ordered; for all delays related thereto; for all extended overhead costs; and for performance of the change within the
stated timeframe. Although amendment A00011 did not change the cost of the contract, a Price Negotiation Memorandum, dated September 20,
2011, stated that the government “agreed to extend the Contract Completion date 467 Calendar days to 20 June 2011, which will bring all
liquidated damages to zero, and to release all retainage.” A Progress Payment History showed that, on August 20, 2011, retainage was $543,244
and deductions were $684,000. The same document indicated that the retainage was zeroed out on September 15, 2011; however, the balance for
deductions remained.

SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                                   20
APPENDIX III: SUMMARY OF CONSTRUCTION QUALITY ISSUES

Table III summarizes the construction quality issues we identified during our inspection of Lal Por 1,
Lal Por 2, and Nazyan in February 2012.


 Table III: Summary of Construction Quality Issues
 Defect                                                             Lal Por 1               Lal Por 2               Nazyan
 HVAC elbows are straight 90 degrees, not sweep 90
                                           a
 degrees as required in the specifications. There was
                              b                                                                                      
 no evidence of turning vanes inside the elbows. Joints
                            c
 were also finished usealed.
 Electrical and mechanical rollup door accutuators are
                                                                                                                     
 inoperable.
 Concrete crack control joints not installed.                                                                        
 Boundary wall height varies above and below design                      
 Improper ladder material                                                                                            
 Missing storm water inlets                                                                                          
 Leaking fuel tanks                                                                                                   
 Roof column bolts with insufficient threads through nuts                                                             
 Breached secondary containment                                                                                       
 Wrong fuel dispenser                                                                                                
 Left construction debris                                                                       
 Ceramic tiles fallen off wall                                                                  
 Missing door sills                                                                             
 Incorrectly installed septic tank piping                                                       
 Masonry needs repair around doors                                                              
 Missing generator parts                                                                        
 Concrete sealant cracking                                                                      
 Guard tower does not follow design                                                             
 Uneven floor finish                                                                            
 Soil subsidence                                                                                
 Sewage backing into manhole shafts                                                                                    
 Steel cradles for fuel tanks not flush with surface                                                                   
 Source: SIGAR results of site visits from February 16 and 17, 2012.
 Notes:
 a
  Straight 90 degree elbows cause turbulent air flow and significantly reduce the air velocity compared to sweep 90 degrees.
 b
   Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.
 c
  Unsealed HVAC joints cause air leakage and reduce the flow out of the registers.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                  21
APPENDIX IV: SUMMARY OF INCOMPLETE CONSTRUCTION

Table IV summarizes the incomplete construction issues we noted during our inspection of Lal Por 1,
Lal Por 2, and Nazyan in February 2012.


 Table IV: Summary of Incomplete Construction
 Defect                                                                    Lal Por 1            Lal Por 2            Nazyan
 Missing attached detention furniture                                                                                  
 DFAC sink missing drain pipe                                                   
 Fuel tanks unmarked and missing telemetry                                                                             
 Ungrounded fuel tanks                                                                                                 
 Missing insulation on water tower piping                                                          
 Missing landscape seeding                                                                                             
 Fuel point fence                                                                                                      
                                                                                                        a
 Water source                                                                                       
 Unsupported HVAC ducting                                                                           
 Water heaters/wall heaters not electrically connected,
                                                                                                    
 missing valves
 Missing bathroom fixtures                                                                          
 Missing erosion protection on storm drain outlet                                                   
 Source: SIGAR results of site visits from February 16 and 17, 2012.
 Note: aThe contractor was in the process of drilling a fourth well in an attempt to find a water supply at Lal Por 2.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                 22
APPENDIX V: DEFECTS IDENTIFIED AT LAL POR 1

Table V shows our observations at Lal Por 1 during our site visit on February 16, 2012.


 Table V: SIGAR Observations at Lal Por 1
                                                              a
 Facility                                            Status         Comments
 Administration building with communications room    Complete       Missing attached detention furniture.
 and arms room                                       with defects   Concrete crack control joints not installed.
                                                     Complete
 Barracks (private/semi-private and open-bay)                       Concrete crack control joints not installed.
                                                     with defects
                                                     Complete
 Logistics building                                                 Concrete crack control joints not installed.
                                                     with defects
                                                     Complete
 DFAC to include outside wood stoves                                Concrete crack control joints not installed.
                                                     with defects
                                                                    HVAC elbows were straight 90 degrees,
                                                                    not sweep 90 degres as required in the
                                                                                   a
                                                     Complete       specifications.
 Latrine                                                                                          b
                                                     with defects   No evidence of turning vanes inside
                                                                    elbows.
                                                                    Concrete crack control joints not installed.
                                                     Complete
 Petroleum, oil, and lubricants Building                            Concrete crack control joints not installed.
                                                     with defects
                                                                    Electrical and mechanical rollup door
                                                     Complete
 Warehouse                                                          actuators were inoperable.
                                                     with defects
                                                                    Concrete crack control joints not installed.
 Vehicle parking area                                Complete
                                                                    Improper ladder material.
                                                                    Leaking fuel tanks.
                                                                    Roof column bolts with insufficient threads
                                                                    through nuts.
                                                     Complete
 Fuel storage and vehicle refuel point                              Breached secondary containment.
                                                     with defects
                                                                    Wrong fuel dispenser.
                                                                    Fuel tanks unmarked and missing
                                                                    telemetry.
                                                                    Ungrounded fuel tanks.
                                                     Complete
 Ammunition supply point                                            Concrete crack control joints not installed.
                                                     with defects
 Guard towers                                        Complete
                                                     Complete       Boundary wall height varied above and
 Perimeter force protection wall
                                                     with defects   below design.
                                                     Complete
 Well house                                                         Concrete crack control joints not installed.
                                                     with defects
 Road network (includes sidewalks and curbing)       Complete
 Water system                                        Incomplete     Missing insulation on water tower piping.
                                                     Complete
 Sanitary sewer system                                              Improper ladder material.
                                                     with defects
 Storm drain system                                  Incomplete     Missing storm water inlets.
 Overall site                                        Incomplete     Missing landscape seeding.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                   23
                                                                        a
 Facility                                                      Status            Comments
 Source: SIGAR observations during site visit to Lal Por 1 on February16, 2012.
 Notes:
 a
   The contract’s scope of work outlined construction requirements for each facility. If we noted missing items during our site
 visit, we annotated the status of the facility as incomplete.
 b
   Straight 90 degree elbows cause turbulent air flow and significantly reduce the air velocity compared to sweep 90 degree.
 c
   Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.
 d
   Unsealed HVAC joints cause air leakage and reduce the flow out of the registers.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                     24
APPENDIX VI: DEFECTS IDENTIFIED AT LAL POR 2

Table VI shows our observations at Lal Por 2 during our site visit on February 16, 2012.


 Table VI: SIGAR Observations at Lal Por 2
                                                              a
 Facility                                            Status         Comments
                                                                    Concrete crack control joints not installed.
                                                                    Ceramic tiles fallen off wall.
                                                                    Missing door sills.
 Administration building with communications room    Complete       Uneven floor finish.
 and arms room                                       with defects   Missing attached detention furniture.
                                                                    Water heaters/wall heaters not electrically
                                                                    connected, missing valves.
                                                                    Concrete crack control joints not installed.
                                                     Complete
 Barracks (private/semi-private and open-bay)                       Missing door sills.
                                                     with defects
                                                                    Uneven floor finish.
                                                                    Concrete crack control joints not installed.
                                                     Complete       Electrical and mechanical rollup door
 Logistics building
                                                     with defects   actuators were inoperable.
                                                                    Masonry repair needed around doors.
                                                     Complete       Concrete crack control joints not installed.
 DFAC to include outside wood stoves
                                                     with defects   Missing door sills.
                                                                    HVAC elbows were straight 90 degree,
                                                                    not sweep 90 degree as required in the
                                                                                   b
                                                                    specifications.
                                                                                                  c
                                                                    No evidence of turning vanes inside
                                                                    elbows.
                                                     Complete                                 d
 Latrine                                                            Joints finished unsealed.
                                                     with defects
                                                                    Concrete crack control joints not installed.
                                                                    Left construction debris.
                                                                    Unsupported HVAC ducting.
                                                                    Water Heaters missing valves.
                                                                    Missing bathroom fixtures.
                                                     Complete
 Petroleum, oil, and lubricants building                            Concrete crack control joints not installed.
                                                     with defects
                                                                    Electrical and mechanical rollup door
                                                     Complete
 Warehouse                                                          actuators were inoperable.
                                                     with defects
                                                                    Concrete crack control joints not installed.
 Vehicle parking                                     Complete
                                                                    Improper ladder material.
                                                                    Wrong fuel dispenser.
                                                     Complete
 Fuel storage and vehicle refuel point                              Fuel tanks unmarked and missing
                                                     with defects
                                                                    telemetry.
                                                                    Ungrounded fuel tanks.
                                                     Complete
 Ammunition supply point                                            Concrete crack control joints not installed.
                                                     with defects
                                                     Complete
 Guard shackand gate house                                          Concrete sealant cracking.
                                                     with defects
 Guard towers                                        Incomplete     Guard tower did not follow design.
                                                     Complete       Boundary wall height varied above and
 Perimeter force protection wall
                                                     with defects   below design.
 Well house                                          Incomplete     Concrete crack control joints not installed.
 Road network (includes sidewalks and curbing)       Complete
                                                     Complete
 Site utilities                                                     Soil subsidence.
                                                     with defects


SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                  25
                                                                        a
 Facility                                                      Status            Comments
                                                                                 Contractor drilling a well at a fourth site in
 Water system                                                  Incomplete        attempt to find a water supply.
                                                                                 Missing insulation on water tower piping.
                                                                                 Improper ladder material.
                                                                                 Left construction debris.
                                                                                 Incorrectly installed septic tank piping.
 Sanitary sewer system                                         Incomplete
                                                                                 Missing septic tank piping.
                                                                                 Septic tank smaller than shown in design
                                                                                 drawings.
                                                                                 Missing storm water inlets.
 Storm drain system                                            Incomplete        Missing Erosion Protection on storm drain
                                                                                 outlet.
 Construct site electrical distribution system                 Incomplete        Missing generator parts.
 Construct overall site                                        Incomplete        Missing landscape seeding.
 Source: SIGAR observations during site visit to Lal Por 2 on February 16, 2012.
 Notes:
 a
  The contract’s scope of work outlined construction requirements for each facility. If we noted missing items during our site
 visit, we annotated the status of the facility as incomplete.
 b
   Straight 90 degree elbows cause turbulent air flow and significantly reduce the air velocity compared to sweep 90 degree.
 c
  Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.
 d
   Unsealed HVAC joints cause air leakage and reduce the flow out of the registers.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                    26
APPENDIX VII: DEFECTS IDENTIFIED AT NAZYAN

Table VII shows our observations at Nazyan during our site visit on February 17, 2012.


 Table VII: SIGAR Observations at Nazyan
                                                                 a
 Facility                                               Status         Comments
 Administration building with communications room,      Complete
                                                                       Concrete crack control joints not installed.
 and arms room                                          with defects
 Barracks Buildings (Private / Semi-private and Open-   Complete
                                                                       Concrete crack control joints not installed.
 Bay)                                                   with defects
                                                                       Electrical and mechanical rollup door
                                                        Complete
 Logistics Building                                                    actuators were inoperable.
                                                        with defects
                                                                       Concrete crack control joints not installed.
                                                        Complete
 DFAC to include outside wood stoves                                   Concrete crack control joints not installed.
                                                        with defects
                                                                       HVAC elbows were straight 90°, not
                                                                       sweep 90° as required in the
                                                                                      b
                                                                       specifications.
                                                        Complete
 Latrine                                                               No evidence of turning vanes inside
                                                        with defects
                                                                       elbows.
                                                                                                  d
                                                                       Joints were also unsealed.
                                                                       Concrete crack control joints not installed.
                                                        Complete
 Petroleum, oil, and lubricants building                               Concrete crack control joints not installed.
                                                        with defects
                                                                       Electrical and mechanical rollup door
                                                        Complete
 Warehouse                                                             actuators were inoperable.
                                                        with defects
                                                                       Concrete crack control joints not installed.
 Vehicle parking                                        Complete
                                                                       Improper ladder material.
                                                                       Leaking fuel tanks.
                                                                       Roof column bolts with insufficient threads
                                                        Complete       through nuts.
 Fuel storage and vehicle refuel point
                                                        with defects   Wrong fuel dispenser.
                                                                       Fuel tanks unmarked and missing
                                                                       telemetry.
                                                                       Ungrounded fuel tanks.
                                                        Complete
 Ammunition supply point                                               Concrete crack control joints not installed.
                                                        with defects
 Guard towers                                           Complete
                                                        Complete       Boundary wall height varied above and
 Perimeter force protection wall
                                                        with defects   below design.
                                                        Complete
 Well house                                                            Concrete crack control joints not installed.
                                                        with defects
 Road network (includes sidewalks and curbing)          Complete
 Water system                                           Complete
                                                        Complete       Improper ladder material.
 Sanitary sewer system
                                                        with defects   Sewage filling manhole shafts.
 Storm drain system                                     Incomplete     Missing storm water inlets.
 Overall site                                           Incomplete     Missing landscape seeding.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                     27
                                                                        a
 Facility                                                      Status            Comments
 Source: SIGAR observations during site visit to Nazyan on February 17, 2012.
 Notes:
 a
  The contract’s scope of work outlined construction requirements for each facility. If we noted missing items during our site
 visit, we annotated the status of the facility as incomplete.
 b
   Straight 90 degree elbows cause turbulent air flow and significantly reduce the air velocity compared to sweep 90 degree.
 c
  Turning vanes are curved pieces of sheet metal placed in sharp bends to help avoid turbulent air flow.
 d
   Unsealed HVAC joints cause air leakage and reduce the flow out of the registers.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                                                    28
APPENDIX VIII: COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar   29
SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar   30
SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar   31
SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar   32
                                                                 See SIGAR
                                                                comment 1




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar     33
SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar   34
SIGAR’s comment to the USACE’s response dated July 9, 2012:

1. Regarding technical comments on the septic system deficiencies at both Nazyan and Lal Por 2,
USACE-TAN did not provide conclusive evidence to resolve the issues we identified. In its comments,
USACE-TAN stated it was unable to conduct a site visit and relied on the contractor’s assertions for
verification. We could not determine from the documentation provided by the contractor to USACE-
TAN whether it adequately addressed the noted deficiencies. We were also unable to determine whether
the photographs submitted by the contractor were taken at the same location, or were taken of the same
septic systems. For example, the photographs submitted of the septic system at Nazyan were inconsistent
with the photographs we took of the same septic system, and were inconsistent with the design
specifications we had reviewed. In an attempt to resolve our concerns, on June 7, 2012, we requested a
meeting with engineers and project officials at the USACE Jalalabad Area Office and with contractor
representatives. However, the Jalalabad Area Office informed us that it had already provided us the
appropriate documentation and that a meeting was unnecessary. On June 17, 2012, USACE-TAN
provided an update of the contractor’s warranty repair activities; however, the pictures and documentation
concerning the septic system deficiencies remained the same and did not provide any new information for
us to consider. Therefore, we continue to believe the issue remains unresolved.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                                          35
                 This inspection report was conducted under project code SIGAR-I-003.




SIGAR Inspection 12-1/Afghan Border Police Bases in Nangarhar                           36
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction (SIGAR) is to enhance oversight of programs for
                              the reconstruction of Afghanistan by conducting independent
                              and objective audits, inspections, and investigations on the use
                              of taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to

                                  •   improve effectiveness of the overall reconstruction
                                      strategy and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management
                                      processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.




Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s web site (www.sigar.mil). SIGAR posts all publically
                              released reports, testimonies, and correspondence on its web
                              site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting allegations
Abuse in Afghanistan          of fraud, waste, abuse, mismanagement, and reprisal contact
Reconstruction Programs       SIGAR’s hotline:

                                  •   Web: www.sigar.mil/fraud
                                  •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                  •   Phone Afghanistan: +93 (0) 700-10-7300
                                  •   Phone DSN Afghanistan 318-237-3912 ext. 7303
                                  •   Phone International: +1-866-329-8893
                                  •   Phone DSN International: 312-664-0378
                                  •   U.S. fax: +1-703-601-4065

Public Affairs                Public Affairs Officer
                              Phone: 703-545-5974
                              Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                              Mail: SIGAR Public Affairs
                              2530 Crystal Drive
                              Arlington, VA 22202
